No.
IN THE SUPREME COURT OF THE UNITED STATES
JAMES VINCENT LIOTT,
Petitioner
U.S. BANK NATIONAL ASSOCIATION
AS TRUSTEE FOR CVI LCF MORTGAGE
LOAN TRUST 1,
Respondent

PROOF OF SERVICE
I, James Liott, do swear or declare that on this date,
September 28, 2021, as required by Supreme Court Rule 29, I have served
the enclosed PETITION FOR A WRIT OF CERTIORARI upon counsel Of record,
by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class
' postage prepaid.
The names and address of those served are as follows:
LEON HALLER, ESQUIRE
PURCELL, KRUG & HALLER
1719 NORTH FRONT STREET
HARRISBURG, PA 17102-2392
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on September 28, 2021

A PS Form 3817 Certificate of Mailing is attached to Petitioner's
Petition for Writ of Certiorari, post marked September 28, 2021.

